     DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                         Office of Audit Services, Region IV
                                                                         61 Forsyth Street, SW, Suite 3T41
                                                                         Atlanta, GA 30303
May 12, 2011

Report Number: A-04-07-00034

Mr. William Wells
Deputy Director of Finance and Administration
South Carolina Department of Health and Human Services
Post Office Box 8206
Columbia, SC 29202

Dear Mr. Wells:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Services to Incarcerated Juveniles in the
State of South Carolina During Federal Fiscal Years 2004 and 2005. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-07-00034 in all correspondence.

                                                    Sincerely,



                                                    /Peter J. Barbera/
                                                    Regional Inspector General
                                                      for Audit Services

Enclosure
Page 2 – Mr. William Wells


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





 REVIEW OF MEDICAID SERVICES TO 

   INCARCERATED JUVENILES IN

  THE STATE OF SOUTH CAROLINA 

DURING FEDERAL FISCAL YEARS 2004

            AND 2005





                       Daniel R. Levinson

                        Inspector General 


                           May 2011

                         A-04-07-00034 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

Section 1905(a) of the Social Security Act (the Act) authorizes State Medicaid agencies to
provide medical services to eligible Medicaid beneficiaries. However, subparagraph (A) of
section 1905(a) of the Act specifically excludes Federal financial participation (FFP) for care or
services provided to inmates of a public institution, except when inmates are patients in a
medical institution.

During prior reviews of Medicaid services (A-04-06-00022 and A-04-06-00026), the Office of
the Inspector General found that certain Medicaid agencies inappropriately claimed FFP for non-
inpatient services to juveniles involuntarily residing in public institutions. These individuals
(juvenile inmates of public institutions) were awaiting criminal proceedings, penal dispositions,
or other involuntary detainment determinations. The Centers for Medicare & Medicaid Services
considers such individuals to be “inmates of public institutions,” and non-inpatient medical
services provided to them are ineligible for FFP pursuant to section 1905(a)(A) of the Act.

OBJECTIVE

Our objective was to determine whether the South Carolina Department of Health & Human
Services (the Medicaid agency) claimed FFP for certain non-inpatient medical services provided
to juvenile inmates of public institutions.

SUMMARY OF FINDINGS

For Federal fiscal years (FY) 2004 and 2005, the Medicaid agency claimed $881,346 ($617,731
Federal share) in costs relating to non-inpatient medical services provided to juvenile inmates of
public institutions. The Medicaid agency inappropriately claimed these costs because neither the
South Carolina Department of Juvenile Justice (DJJ) nor the Medicaid agency had adequate
controls to ensure that services to inmates of public institutions were excluded from FFP, in
compliance with Federal requirements.

RECOMMENDATIONS

We recommend that the Medicaid agency:

   	 refund to the Federal Government the $617,731 overpayment for Federal FYs 2004 and
      2005 and

   	 establish monitoring procedures to provide reasonable assurance that DJJ complies with
      Federal and State requirements.




                                               i
MEDICAID AGENCY COMMENTS

In written comments on our draft report, the Medicaid agency agreed with our findings and
recommendations and described corrective actions that it and DJJ had implemented or planned to
implement.

The Medicaid agency’s comments are included in their entirety as the Appendix.




                                            ii
                                                 TABLE OF CONTENTS


                                                                                                                             Page

INTRODUCTION.................................................................................................................1 


          BACKGROUND ........................................................................................................1 

              Medicaid Medical Assistance Programs .........................................................1 

              South Carolina Department of Health & Human Services .............................1 

              South Carolina Department of Juvenile Justice ..............................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2 

               Objective .........................................................................................................2    

               Scope...............................................................................................................2   

               Methodology ...................................................................................................3        


FINDINGS AND RECOMMENDATIONS .......................................................................3 


          PROGRAM REQUIREMENTS .................................................................................4 

              Federal Law ....................................................................................................4        

              Centers for Medicare & Medicaid Services Medicaid Coverage 

                Policy Notice...............................................................................................4 


          UNALLOWABLE MEDICAL ASSISTANCE COSTS ............................................5 

              Unallowable Costs for Non-Inpatient Services...............................................5 

              Inadequate Controls ........................................................................................6            

              Overpayments Related to Unallowable Costs.................................................6 


          RECOMMENDATIONS ............................................................................................6 


          MEDICAID AGENCY COMMENTS...................................................................... 6 


APPENDIX

          MEDICAID AGENCY COMMENTS




                                                                iii
                                                 INTRODUCTION 



BACKGROUND 


Title XIX of the Social Security Act (the Act) authorizes Federal grants to States for Medicaid
programs that provide medical assistance to low-income individuals and persons with
disabilities. The Centers for Medicare & Medicaid Services (CMS) administers the Medicaid
program for the Federal Government. Each State administers its Medicaid program in
accordance with a CMS-approved State plan. While the State has considerable flexibility in
designing its State plan and operating its Medicaid program, it must comply with applicable
Federal requirements.

During prior reviews of Medicaid services (A-04-06-00022 and A-04-06-00026), the Office of
the Inspector General found that certain Medicaid agencies inappropriately claimed Federal
financial participation (FFP) for non-inpatient services to juveniles involuntarily residing in
public institutions. These individuals (juvenile inmates of public institutions) were awaiting
criminal proceedings, penal dispositions, or other involuntary detainment determinations. CMS
considers such individuals to be “inmates of public institutions,” and non-inpatient medical
services provided to them are ineligible for FFP pursuant to section 1905(a)(A) of the Act.

Medicaid Medical Assistance Programs

Section 1905(a) of the Act offers grants to State Medicaid agencies for medical assistance to
provide medical services to Medicaid beneficiaries. However, subparagraph (A) of section
1905(a) of the Act states that medical assistance does not include “any such payments with
respect to care or services for any individual who is an inmate of a public institution (except as a
patient in a medical institution)....”

South Carolina Department of Health & Human Services

The South Carolina Department of Health & Human Services (the Medicaid agency) administers
the Medicaid program in South Carolina. The Medicaid agency makes payments to Medicaid
providers for medical services1 and claims the payments as costs for FFP on its “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (Form CMS-64). The
Medicaid agency works together with the South Carolina Department of Juvenile Justice (DJJ) to
provide Medicaid reimbursable medical services to eligible juveniles.




1
    Medical services include inpatient hospital services and non-inpatient services.


                                                          1

South Carolina Department of Juvenile Justice

DJJ is responsible for providing rehabilitation and custodial care for the State’s juveniles who are
on probation, incarcerated, or on parole. The DJJ supports the Governor by “protecting the
public and reclaiming juveniles through prevention, community programs, education, and
rehabilitative services in the least restrictive environment.”

In South Carolina, juveniles usually enter the juvenile justice system when taken into custody by
law enforcement or when referred to DJJ by a Circuit Solicitor or a school. At this stage,
personnel at a DJJ county office usually interview the juvenile. Law enforcement might also
elect to send the juvenile to a South Carolina juvenile detention center, pending a hearing. The
Solicitor may choose to divert a juvenile to a community program or require the juvenile to make
restitution for the offense. Solicitors may also choose to proceed with prosecution or dismiss the
case entirely.

If found delinquent, the juvenile may be put on probation or given a “determinant” (fixed amount
of time) or an “indeterminate” commitment. If a juvenile receives an indeterminate
commitment, he will be held for an indefinite period of time, up to age 21. Upon commitment,
the State Board of Juvenile Parole gives the juvenile a time range or “guideline.” The guideline
may run from a period of 1 to 3 months to a period of 36 to 54 months.

The Board of Juvenile Parole may also grant juveniles conditional or unconditional releases. A
conditional release might involve requiring the juvenile to complete a local aftercare program or
a program at a wilderness camp or group home. A conditional release also involves a period of
parole supervision. DJJ county officers supervise juveniles on parole, much as they supervise
juveniles on probation.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid agency claimed FFP for certain non-
inpatient medical services provided to juvenile inmates of public institutions.

Scope

We reviewed paid Medicaid payments totaling $881,346 for non-inpatient medical services
provided to juvenile inmates of public institutions from October 1, 2003, through September 30,
2005. We relied on Medicaid payment information provided by the Medicaid agency.

We limited consideration of the Medicaid agency and DJJ internal control structures to those
controls concerning claims processing because the objective of our review did not require an
understanding or assessment of the complete internal control structure. Further, we concluded
that our review of the Medicaid agency’s internal control structure could be conducted more
efficiently by substantive testing.




                                               2

We performed our fieldwork at the Medicaid agency and DJJ headquarters in Columbia, South
Carolina.

Methodology

To accomplish our objective, we:

    	 reviewed Federal laws, regulations, CMS policy notices, and other requirements
       regarding Medicaid reimbursement for medical services to inmates of a public institution;

    	 interviewed Medicaid agency and DJJ officials;

    	 obtained from the DJJ Management Information Juvenile Tracking System2 a list of
       juveniles incarcerated in juvenile detention centers from October 1, 2003, through
       September 30, 2005;

    	 obtained an extract from the Medicaid agency’s billing system identifying unduplicated
       payments totaling $2,259,709 for all medical services provided to juveniles who were
       inmates of public institutions from October 1, 2003, through September 30, 2005;

    	 eliminated from the extract payments totaling $1,378,363 for medical services provided
       to juveniles who were residents of group homes, for room and board services, and for
       claims with incorrect dates of incarceration; and

    	 reconciled the remaining $881,346 in payments for all non-inpatient medical services
       provided to juvenile inmates of public institutions to the costs claimed by the Medicaid
       agency on the Form CMS-64.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

For Federal fiscal years (FY) 2004 and 2005, the Medicaid agency claimed $881,346 ($617,731
Federal share) in costs relating to non-inpatient medical services provided to juvenile inmates of
public institutions. The Medicaid agency inappropriately claimed these costs because neither the
DJJ nor the Medicaid agency had adequate controls to ensure that services to inmates of public
institutions were excluded from FFP, in compliance with Federal requirements.




2
  The Management Information Juvenile Tracking System is an electronic system used by DJJ to record all pertinent
information on juveniles committed to DJJ custody and to track them until their release from custody.


                                                     3

PROGRAM REQUIREMENTS

Federal Medicaid requirements are contained in Federal law and CMS policy notices to State
Medicaid directors.

Federal Law

Section 1905(a) of the Act offers grants to State Medicaid agencies for medical assistance to
provide medical services to Medicaid beneficiaries. The term “medical assistance” is defined as
payment for part or all of the cost of certain types of services and care listed under section
1905(a) of the Act. Medical services include inpatient hospital services, non-inpatient services,
and laboratory and x-ray services, in addition to several other categories of services.

Non-inpatient services include but are not limited to outpatient hospital services; rural health
clinic services; physicians’ services; medical and surgical services furnished by a dentist;
medical care or any type of remedial care furnished by a licensed practitioner; and prescription
drugs, dentures, prosthetic devices, and eyeglasses prescribed by a physician. However,
subparagraph (A) following section 1905(a) of the Act states that medical assistance does not
include “any such payments with respect to care or services for any individual who is an inmate
of a public institution (except as a patient in a medical institution)....” Pursuant to 42 CFR
§ 435.1008(a)(1),3 FFP is not available for services to “[i]ndividuals who are inmates of public
institutions....”4

Federal regulations (42 CFR § 435.1009)5 define an inmate of a public institution as “a person
who is living in a public institution.” They further state that “public institution” means “an
institution that is the responsibility of a governmental unit or over which the governmental unit
exercises administrative control.”

Centers for Medicare & Medicaid Services Medicaid Coverage Policy Notice

On March 6, 1998, CMS issued a Program Issuance Transmittal Notice (Medicaid policy notice)
to all States in Region IV, which included South Carolina, to clarify Medicaid coverage policy
for inmates of a public institution. This Medicaid policy notice replicates the statement of
Medicaid coverage policy for inmates of a public institution issued by CMS to all Associate
Regional Administrators on December 12, 1997.

The Medicaid policy notice states that, for purposes of excluding FFP for services provided to
inmates of a public institution, there is no difference in application of the policy to juveniles or

3
  This citation is applicable to our audit period: October 1, 2003, through September 30, 2005. On October 1, 2007,
this citation was moved to 42 CFR § 435.1009(a)(1).
4
 The final rule (50 Fed. Reg. 13196 (April 3, 1985)) implementing this regulation effective May 3, 1985, states:
“Under the policy set forth in this rule, FFP will not be available for Medicaid services provided from the date of
admission until the date of discharge.”
5
  This citation is applicable to our audit period: October 1, 2003, through September 30, 2005. On October 1, 2007,
this citation was moved to 42 CFR § 435.1010.


                                                        4

adults. Also, CMS’s policy clarifies that for FFP to be prohibited, two criteria must be satisfied:
(1) the individual must be an inmate and (2) the inmate must reside in a public institution. To be
classified as an inmate, an individual must be serving time for a criminal offense or confined
involuntarily in State or Federal prisons, jails, detention facilities, or other penal facilities. It
further notes that the exception to inmate status in which “other living arrangements appropriate
to the individual’s needs are being made” does not apply when an individual is involuntarily
residing in a public institution awaiting criminal proceedings, penal dispositions, or other
involuntary detainment determinations. A facility is deemed a public institution when it is under
the responsibility or administrative control of a governmental unit.

An exception to the prohibition of FFP, as clarified by CMS in the Medicaid policy, is available
when an inmate is admitted as an inpatient in a hospital, nursing facility, juvenile psychiatric
facility, or intermediate care facility for covered Medicaid services. However, this exception
does not apply for services provided at such facilities when provided to the inmate on an
outpatient basis. Furthermore, CMS distinguishes prison hospitals or dispensaries from inpatient
institutions and concludes that FFP is not available for medical services provided to inmates in
such settings as the inmate would not be considered a patient in a medical institution.

UNALLOWABLE MEDICAL ASSISTANCE COSTS

Unallowable Costs for Non-Inpatient Services

For Federal FYs 2004 and 2005, the Medicaid agency claimed $881,346 ($617,731 Federal
share) in costs relating to non-inpatient medical services provided to juvenile inmates of a public
institution. The amount claimed included payments for non-inpatient services such as outpatient
hospital services; clinical services; physician and osteopath services; dental services; optometric
services; durable medical equipment; independent lab/x-ray services; ambulance and medical
transportation services; and prescription drugs.

Some examples of non-inpatient medical services provided to juvenile inmates of a public
institution were:

   	 physician services on September 15, 2004, for a forearm splint application provided to an
      individual incarcerated in a public long term commitment facility from August 26, 2004,
      through September 17, 2004;

   	 physician services on February 23, 2005, for an office consultation provided to an
      individual incarcerated in a public detention facility from November 18, 2004, through
      March 1, 2005;

   	 dental services on December 6, 2004, provided to an individual incarcerated in a public
      evaluation and admission center from November 30, 2004, through January 19, 2005; and

   	 pharmacy services on May 15, 2005, provided to an individual incarcerated in a public
      detention facility from May 4, 2005, through June 30, 2005.



                                                5

Inadequate Controls

The Medicaid agency inappropriately claimed unallowable costs for non-inpatient services
because neither DJJ nor the Medicaid agency had adequate controls to ensure that, pursuant to
Federal requirements, services to inmates of public institutions were excluded from FFP. The
Medicaid agency had no monitoring procedures in place to ensure that the amounts claimed for
FFP excluded services to incarcerated juveniles considered to be inmates of a public institution.
Furthermore, DJJ did not properly identify incarcerated juveniles who were ineligible for FFP.

Overpayments Related to Unallowable Costs

As a result of inadequate controls, the Medicaid agency erroneously made Medicaid payments
for non-inpatient medical services provided to juvenile inmates of a public institution and
claimed these payments as costs for FFP on its Form CMS-64. Based on the results of our
review, CMS overpaid the Medicaid agency $617,731 (Federal share) for these ineligible
services.

RECOMMENDATIONS

We recommend that the Medicaid agency:

   	 refund to the Federal Government the $617,731 overpayment for Federal FYs 2004 and
      2005 and

   	 establish monitoring procedures to provide reasonable assurance that DJJ complies with
      Federal and State requirements.

MEDICAID AGENCY COMMENTS

In written comments on our draft report, the Medicaid agency agreed with our findings and
recommendations and described corrective actions that it and DJJ had implemented or planned to
implement.

The Medicaid agency’s comments are included in their entirety as the Appendix.




                                              6

APPENDIX

                        APPENDIX: MEDICAID AGENCY COMMENTS
                                ~                                                  Page 1 of2


Jt:~~&~~~~--------------------~£-~
                              ----~__~ -.~---
                                          ~~~-
                                             Aprill 20, 2011

    Mr. Peter J. Barbera
    Regional Inspector General for Audit Services
    Office of Inspector General
    61 Forsythe Street, SW, Suite 3T41
    Atlanta, GA 30303

    RE: Report Number A-04-07-00034

    Dear Mr. Barbera:

    This is the response from the South Carolina Department of Health and Human Services
    to the Office of Inspector General (OIG) draft audit report entitled "Review of Medicaid
    Services to Incarcerated Juveniles in the State of South Carolina during Federal Fiscal
    Years 2004 and 2005" (Report #: A-04-07-00034).

    The South Carolina Department of Health and Human Services (SCDHHS) agrees with
    the findings and recommendations of the report. Our response also incorporates the
    response of the South Carolina Department of Juvenile Justice (DJJ). As requested,
    listed below are the agencies' joint responses and corrective actions to the
    recommendations noted in this review.

       1. 	 OIG Recommendation:         Refund the Federal Government the $617,731
            overpayment for the Federal FYs 2004 and 2005.

           SCDHHS and SCDJJS Response: Both SCDHHS and SCDJJ concur with the
           repayment of this amount. The SCDHHS will transmit the funds to CMS as soon
          as the final report is received. Please note that after the,OIG audit fieldwork was
          concluded, SCDHHS conducted its own audit of Medicaid claims paid on behalf
          of juveniles under the jurisdiction of DJJ. We reviewed Medicaid children's
          treatment services rendered from July 1, 2005, to June 30, 2006, and concluded
          that all services were provided in a community-based setting to juveniles who
          were not incarcerated and therefore eligible for Medicaid services. All, we would
          like to emphasize that a significant portion of the services that were billed to
          Medicaid for incarcerated juveniles were not billed by DJJ but by private and
          other State agency providers. A number of these inappropriate billings were
          provided when juveniles were incarcerated in local county-operated detention
          facilities that are not under the control of DJJ.

       2. 	 OIG Recommendation: Establish monitoring procedures to provide reasonable
            assurance that DJJ complies with Federal and State Requirements.

          SCDHHS and SCDJJS Response: SCDJJS has established written procedures
          for incarcerated juveniles that are under DJJ control/supervision who may need
          medical services outside of what the DJJ infirmary and health services can
          provide.


                             P.O. Box 8206· Columbia, South Carolina 29202-32.06
                                      (803) 898-2503 • Fax (803)255-8235
                                                                                   Page 2 of2



Mr. Peter J. Barbera 

April 20, 2011 

Page Two 



         In these situations, a referral form is sent with the juvenile to the specialty care
         provider. That form instructs the service provider to bill DJJ for all services
         rendered and not to bill Medicaid, because of the exclusion that exists in the
         Medicaid law for non-inpatient medical services for detained or incarcerated
         youth.

       DJJ will instruct other State agencies both orally and in writing that any service
       they provide to a juvenile who is located in a secure facility such as a jail,
       detention center, evaluation center or the DJJ Broad River Road Complex can
       neither be billed to, nor reimbursed by, Medicaid.
       SCDHHS has also made some changes to the Medicaid Eligibility Determination
       System (MEDS) in 2006 and 2007 that better identify SCDHHS juveniles who are
       incarcerated and not eligible for services. In addition, the agency has sponsored
       DJJ eligibility workers who coordinate in-take and Medicaid eligibility processing
       for juveniles under the jurisdiction of DJJ. For example, if the child enters DJJ
       "behind the fence" (into a secure facility) and the inmate indicator is needed in
       MEDS, the application is shaded in pink to alert the sponsored worker. Upon
       approval/processing, the sponsored worker updates MEDS with this inmate
       indicator. DJJ state office staff provides information to the on-site sponsored
       worker as to which months the inmate indicator is needed. The sponsored worker
       will update MEDS for the months requested by DJJ. If the MEDS status changes
       with a child in custody of DJJ, the sponsored worker is alerted by DJJ state office
       staff who provides a new application.

Again, we thank you for the opportunity to comment on the draft report. If you have any
further questions, please do not hesitate to call Kathleen Snider, SCDHHS, at (803) 898­
1050, or Joan Barber, SCDJJ, (803) 896-9477.

                                                      Sincerely,   ~

                                                    ~. ~s(
                                                      Interim Deputy Director
                                                      Finance and Administration

REH/sh

C.    G. Randall Grant, Deputy Director, SCDJJ,
       Financial Services Division 

      Joan Barber, SCDJJ 

      Kathleen Snider, SCDHHS 

      Kathy Bass, SCDHHS 

      John Supra, SCDHHS 

